audit report



Return to the USDOJ/OIG Home Page



Drug Court Implementation Initiative Administered by the Dallas County District Attorney's Office
GR-80-98-037
September 17, 1998 
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of the Dallas County Drug Court Implementation Initiative, Grant No. 97-DC-VX-0100, administered by the Dallas County District Attorney, for the period of April 1, 1997, through June 30, 1998.  The $400,000 grant, awarded by the Office of Justice Programs, is effective from April 1, 1997, through March 31, 1999.

	During our review, we determined that the Dallas Initiative for Diversion and Expedited Rehabilitation (DIVERT) Drug Court obtained income from the collection of program fees and positive urinalysis drug testing fees.  From January 1 through
June 30, 1998, these fees totaled $3,864.  The fee income had been collected by Community Supervision Officers and placed in a Community Supervision and Corrections Department (CSCD) account.  The DIVERT Drug Court program staff did not transfer the fee money from the CSCD state account into Dallas County's DIVERT Drug Court escrow account.  Furthermore, the staff did not inform the Dallas County Auditor's office that fees were being collected.  As a result, the Dallas County Auditor's financial status reports have not included fee income, and we are questioning $3,864 under this grant.

	In addition, we found the following weaknesses with regard to meeting grant conditions:

The DIVERT Drug Court program office did not have internal control procedures for the collecting, recording, and depositing of fees income.

	The DIVERT Drug Court program office did not provide financial oversight for the grant.

These weaknesses are discussed in the Findings and Recommendations section of this report.  Our audit scope and methodology are described in Appendix I.